OIG Audit Report GR-30-03-006

Office of Community Oriented Policing Services Grants
 to the City of Chesapeake Police DepartmentChesapeake, Virginia

Audit Report GR-30-03-006


August 2003
Office of the Inspector General


Executive Summary

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Chesapeake Police Department (CPD).  The purpose of the grants is to enhance community policing.  The COPS Office awarded the CPD a total of $6,306,733 to hire 70 new police officers and redeploy the equivalent of 30.5 existing full-time police officers from administrative duties to community policing.
We found that the CPD did not comply with certain COPS's grant requirements.  We reviewed the CPD's compliance with seven essential grant conditions:  budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, redeployment tracking, retention of officer and civilian positions, and community policing.  We found weaknesses in hiring of officers and redeployment tracking.  As a result of the deficiencies identified below, we question $892,144 in grant funds received and recommend an additional $175,109 be put to better use.1

The CPD did not increase and maintain its level of sworn officer strength, which has the effect of supplanting, for 13 of 89 months after receiving the COPS funded positions.
The CPD did not redeploy the full number of FTEs into community oriented policing, per the MORE 95, 96, 98, and 2000 grant requirements.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.